No. 20-5840
IN THE SUPREME COURT OF THE UNITED STATES

JAMES ROBERT MILLER,
PETITIONER,
vs.
UNITED STATES OF AMERICA,
RESPONDENT.

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
REPLY BRIEF FOR PETITIONER

KATHERINE KIMBALL WINDSOR
Law Office of Katherine Kimball Windsor
65 N. Raymond Avenue, Suite 320
Pasadena, California 91103
(213) 663-9219
katy@windsorlaw.us
Attorney for Petitioner

TABLE OF CONTENTS
REPLY BRIEF FOR PETITIONER ………………………………… 1
CONCLUSION ………………………………………………………. 6

i

TABLE OF AUTHORITIES
United States v. Luger,
837 F.3d 870, 877 (8th Cir. 2016) ……………………………

1

United States v. Miller,
953 F.3d 1095, 1098 (9th Cir. 2020) ………………………….. 3
United States v. Olsen,
737 F.3d 625, 632 (9th Cir. 2013) ……………………………. 2
United States v. Russell,
411 U.S. 423, 431-32 (1973) ………………………………… 1
United States v. Scrushy,
721 F.3d 1288, 1307-1308 (11th Cir. 2013) ………………….. 1
Young v. United States,
481 U.S. 787 (1987) …………………………………………… 1

ii

REPLY BRIEF FOR PETITIONER
The government’s Opposition seeks to avoid review of a flawed federal
prosecution, initiated by a prosecutor with direct personal and financial interests in
the case who remained involved in it even after his supervisor recused him and his
entire office. Characterizing the case as a “factbound determination” that is not
worthy of this Court’s attention, the government asks this Court to turn a blind eye
to prosecutorial misconduct. See Br. in Opp. 9-10. It notes that appellate courts
around the country rarely, if ever, find that such misconduct meets the
requirements for the outrageous government conduct claim, a standard derived
from United States v. Russell, 411 U.S. 423, 431-32 (1973), requiring conduct “so
grossly shocking and so outrageous as to violate the universal sense of justice.” See
id. at 7-8 (collecting cases showing that the claim based on is routinely rejected).
Acknowledging that the prosecutor’s actions were “ill-advised,” it urges this Court
to allow them to stand. See id. at 12.
The government is correct that appellate courts routinely reject outrageous
government misconduct claims, and that slowly, the lower courts are carving out
exceptions to this Court’s holding in Young v. United States, 481 U.S. 787 (1987)
which reversed convictions where the prosecutor had a financial interest in the
case. See Br. In Opp. 11-12, citing inter alia United States v. Luger, 837 F.3d 870,
877 (8th Cir. 2016); United States v. Scrushy, 721 F.3d 1288, 1307-1308 (11th Cir.

1

2013). But that fact does not lead to the conclusion the government desires.
Specifically, if this case does not meet the outrageous government conduct
standard – indeed, if there is no case that appellate courts find meets the standard -the claim is meaningless. Given the well-recognized need to root out prosecutorial
misconduct, see, e.g. United States v. Olsen, 737 F.3d 625, 632 (9th Cir. 2013)
(Kozinski, C.J., et al., dissenting from denial of rehearing en banc), it is untenable
to lack a means of enforcement. This Court’s intervention is badly needed to
consider the exceptionally important federal question of whether a prosecutor’s
initiation of an investigation in a case in which he has a personal and financial
interest, and subsequent continued involvement in the case even after his office is
recused, warrants dismissal of the indictment.
The government first mischaracterizes James Miller’s case as a gardenvariety embezzlement case which the FBI would have pursued regardless of
whether Assistant United States Attorney (“AUSA”) Greg Lesser had used a back
channel reporting method. Nothing could be further from the truth. The loan
checks were written in the context of a casual and friendly company culture in
which loans were frequently made and paid back by the company’s managing
members, accurately documented by the checks themselves and duly recorded in
the company’s bank records. The way these particular loans initially were revealed
was Miller’s routine reporting of them to the prosecutor’s father, Russell Lesser, a

2

Certified Public Accountant, during the company’s annual tax preparation meeting,
certainly not the action of an embezzler. Indeed, at all times when Miller was
writing himself checks, he was engaged in another loan transaction that had greatly
benefited Russell Lesser and one of Lesser’s other companies named Body Glove.
Miller held a note from Body Glove on a loan orchestrated by Russell Lesser,
worth $300,000, which Miller could, and eventually did, transfer to make the
company from which Miller had taken loans whole (in fact, overpaying the debt by
$80,000). In conjunction with that transaction, the prosecutor’s father Russell
Lesser resolved all disagreements with Miller over the various intertwined loan
transactions. This was a business dispute, resulting in no financial loss to anyone.
But when AUSA Greg Lesser jump-started an investigation by the FBI,
Miller had a strong defense that he did not intend to deprive the company of
something of value, a defense which ultimately was undercut by the jury being
misinstructed that wire fraud under 18 U.S.C. § 1343 requires only the intent to
“deceive or cheat” rather than “deceive and cheat.” See United States v. Miller, 953
F.3d 1095, 1098 (9th Cir. 2020) (holding instruction erroneous but error harmless).
In short, this was a low-value, no-loss case which would never have been
considered for prosecution without the involvement of AUSA Greg Lesser, whose
initial outreach to a friend in the FBI was critical.
The government then argues that the lower courts “correctly determined that

3

the three weeks that passed between AUSA Greg Lesser’s call to the FBI and his
reporting of the conflict to his office likewise did not necessitate dismissal.” Br. In
Opp. 10. Again, this minimizes the importance of those 22 days of whirlwind
investigation, culminating with a wired confrontation between Russell Lesser and
Miller which became the heart of the government’s case. The government
improperly makes light of AUSA Lesser’s continued involvement in the case after
recusal because there was no direct contact made with the prosecutor from the
Southern District. Id. at 11. This ignores AUSA Lesser’s role in passing
information along either directly or indirectly to FBI Agent Swanson through his
father. In particular, the government rejects the proposition that AUSA Lesser was
involved in advice on strategy. Br. In Opp. 9, n.1. The source for this information
is a FBI 302 report dated 7/29/2014, almost two years after the recusal, which
states:
Lesser recently spoke with his son, Greg Lesser (Greg), who told
Lesser that when the United States Attorney’s Office (USAO) makes
a plea offer to a subject, the offer is typically the best offer the subject
will receive, i.e., any subsequent offers are usually worse for the
subject. Lesser suggested that the FBI interview JAMES MILLER’s
son, Jeff Miller (Jeff), regarding Miller’s embezzlement from MWRC.
Jeff is aware that MILLER embezzled money from MWRC and told
MILLER to sell MILLER’s house in order to repay MWRC. Lesser
thought that if the FBI interviewed Jeff, MILLER would become
aware of the interview and the fact that Jeff might be required to
testify against MILLER if the matter went to trial. Consequently,
MILLER might accept the plea offer that was previously extended to
Miller by the USAO. Lesser’s idea of interviewing Jeff arose after the
Independence Day holiday weekend, when Lesser attended a
4

gathering of friends and family at the beach. Jeff was at the gathering,
and Miller also showed up to the gathering. MILLER’s presence made
Lesser feel very uncomfortable.
See Ninth Circuit Case Nos. 17-50338, 18-50449, Excerpts of Record Volume
Four at page 831. This is typical of the type of influence AUSA Lesser continued
to have on the case – inside information of how federal investigations and
prosecutions work, conveyed through his father to the FBI Agent, who was not
walled off from the Central District of California United States Attorney’s Office.
The government insists that this Court should wave aside the misconduct
that occurred in this case. The fact remains, however, that even the Southern
District prosecutor acknowledges that AUSA Lesser’s participation in Miller’s
case would likely constitute a felony violation of 18 U.S.C. § 208, stating at oral
argument in the Ninth Circuit that an evidentiary hearing would have been fruitless
because AUSA Lesser may well have invoked his Fifth Amendment right against
self-incrimination. This is an astonishing juxtaposition: the government on the one
hand acknowledges that AUSA Lesser would not testify at an evidentiary hearing
in a case brought by his own Department of Justice given his felony exposure
based on his role in that very case, while at the same time asking the Court to
forgive this felony behavior and affirm a conviction stemming from the
misconduct.

5

Miller acknowledges that lower courts have side-lined this Court’s holding
in Young that the involvement of an interested prosecutor constitutes structural
error. See Br. in Opp. at 11. It wants outrageous governmental misconduct to
remain a fruitless claim, often raised but never granted. Id. at 8-9. To do so, claims
must be dismissed as “factbound arguments” which do not warrant attention. Such
claims are always based on facts – in this case, outrageous facts so grossly
shocking as to violate the universal sense of justice – which should not be swept
under the rug. Miller urges this Court to grant certiorari to reinstate teeth into a test
which has been diminished by the lower courts, but which is crucial to restoring
faith in the criminal justice system.
CONCLUSION
On the basis of the foregoing, the Court should grant the petition for writ of
certiorari to resolve this important federal question.

Respectfully Submitted,
Date: December 14, 2020

Katherine Kimball Windsor
Law Office of Katherine Kimball Windsor
65 N. Raymond Avenue, Suite 320
Pasadena, California 91103
Attorney for Petitioner

6

